         U.S. Department of Education
          Office of Inspector General




       An OIG Perspective on the
          Reauthorization of the
Elementary and Secondary Education Act




                February 1999

                    S1480010
An OIG Perspective on the Reauthorization of the ESEA                                                                                Page ii




                                                            Contents

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii

An OIG Perspective on the Reauthorization of the
Elementary and Secondary Education Act . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Purpose and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
      Map of site visits and questionnaire sites . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Background/Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

Plain Language . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

Essential Requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

Recommendation 1:
Use common sense tests to determine needed requirements . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
      Test 1: What Requirements Should be Included in the Reauthorized Law? . . . . . . . . . . 5
      Test 2: Is the Law Written in Plain Language? . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

Data Validity and Reliability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

Recommendation 2:
Consider managerial assertions of data validity and reliability . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

Recommendation 3:
Use a data validity and reliability test to determine valid and reliable data requirements . . . . . . . 8
       Test 3: Data Validity and Reliability . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

Compliance Monitoring . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

The Results Act Adds a New Oversight Responsibility . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

OIG Review of FY 1996 Single Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

Recommendation 4: Minimum standards . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

Recommendation 5: Developing an effective system for monitoring SEAs . . . . . . . . . . . . . . 12

Compendium of Pertinent OIG Audit Results and Recommendations . . . . . . . . . . . . . . . . . . . . 13

Glossary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
An OIG Perspective on the Reauthorization of the ESEA                                            Page iii



                                         Executive Summary

The U.S. Department of Education (the Department) and Congress have an opportunity to
improve the effectiveness and efficiency of the Elementary and Secondary Education Act of 1965
(ESEA), as amended by the Improving America’s Schools Act of 1994 (IASA), and align the
ESEA with the Government Performance and Results Act of 1993 (Results Act). In the 1994
reauthorization, Congress legislated greater flexibility in the administration of ESEA programs in
return for increased accountability for results. The Office of Inspector General (OIG) believes
that the Department and Congress can build on this effort and continue improvements in the
ESEA programs.

To assist in this important task, the OIG has prepared the following recommendations for the new
ESEA:

         1. The IASA is a comprehensive statute that provides legislative authority for over 36
            elementary and secondary education programs. To ease the administrative burden on
            state education agencies (SEAs) and local education agencies (LEAs), the
            reauthorized ESEA should be written in plain language that is clear enough to permit
            implementation of the law at the state and local levels without the need for extensive
            technical assistance. The OIG has developed two tests that are designed to aid the
            Department and Congress in determining the appropriate “common sense”
            requirements to include in the reauthorized ESEA.

         2. The Results Act requires the assimilation of valid and reliable performance information
            from federal programs, including the ESEA. The reauthorized ESEA needs to require
            not only the compilation of data for use in determining student achievement and
            program effectiveness, but also should take into consideration the need to assure the
            validity and reliability of data provided for that purpose from the state and local levels.
            To accomplish this assurance, an assertion could be considered that is similar to the
            management assertion required from all Department program managers under
            Objective 4.7 of the Department’s Strategic Plan.

         3. To more effectively produce the data required by the Results Act, the OIG has
            developed a test to help determine whether ESEA data collections fulfill the need for
            valid and reliable data.

         4. An OIG review of the FY 1996 audits conducted under the Single Audit Act revealed
            weaknesses in SEA oversight of ESEA programs. To address this issue, the
            Department should establish minimum standards for SEAs in monitoring the LEA
            administration of ESEA programs.




         5. The Department should play a stronger role in ensuring ESEA program integrity by
An OIG Perspective on the Reauthorization of the ESEA                                           Page iv

             developing an oversight system that integrates program reviews, audits, technical
             assistance, grantee reporting, and evaluation studies; emphasizes follow-up of
             corrective actions; takes into account results of state analyses of LEA single audit
             findings and otherwise ensures compliance with program requirements.

The final section of this perspective paper is a summary of major audit results and reviews
regarding charter school accountability, the flow of Title I program dollars to the schools, the use
of Title XIV flexibility provisions and other related matters. (This summary appears on pages 13
to 18 of this report.)
An OIG Perspective on the Reauthorization of the ESEA                                                                    Page 1




                An OIG Perspective on the Reauthorization of the
                   Elementary and Secondary Education Act


Purpose and Scope:

In anticipation of the 1999 reauthorization of the Elementary and Secondary Education Act1
(ESEA), the Office of Inspector General (OIG) conducted audits and reviews2, actively engaged
in the Cooperative Audit Resolution and Oversight Initiative (CAROI), participated in U.S.
Department of Education (the Department) work teams, Program Coordination Review teams,
and ESEA related conferences. Additionally, we reviewed General Accounting Office (GAO) and
single audit reports and studies and evaluations from other sources. As part of our audits and
reviews, we visited many different states, local educational agencies (LEAs), and schools
interviewing numerous state, local, and school officials.




         1
           The Elementary and Secondary Education Act of 1965 (20 U.S.C. 2701 et seq.). The authorizations of
appropriations for programs under the ESEA were extended for five years by the Improving America’s Schools Act of 1994.
         2
         For a complete listing and brief description of the audits and reviews used in developing this paper, please refer to
the Compendium on page 13.
An OIG Perspective on the Reauthorization of the ESEA                                                Page 2



Using these audits and reviews, as well as our experience on related ESEA initiatives and work
teams, we developed this paper to provide our perspective on the ESEA reauthorization. This
paper provides a discussion of “common sense” tests for determining necessary and
comprehensible compliance requirements and how they might be formulated to incorporate the
requirements of the Government Performance and Results Act (Results Act). The paper also
provides a compendium of the pertinent audit results with recommendations for legislative
changes. This paper is designed to assist the Department and Congress in determining needed
revisions, additions, and/or deletions to the ESEA. To avoid a duplication of effort, we focused
on compliance and accountability in the administration of programs rather than on specific
statutory program content.

Background/Introduction:

The ESEA of 1965 was reauthorized through the Improving America’s Schools Act of 1994.
One purpose of the revised ESEA was to introduce greater flexibility in the administration of
programs in return for increased accountability for results. Based on our experience with the
ESEA programs and their administration, the 1999 reauthorization should strive to make the law
more “user friendly” to better achieve the flexibility and accountability provided in the 1994
reauthorization. To accomplish this objective, the ESEA should:

         C be written in “plain language” to ensure uniform interpretation by users at all
           levels-from the federal to the school level;
         C include essential requirements to achieve the desired program results;
         C consider necessary controls to ensure data validity and reliability; and
         C ensure compliance monitoring and enforcement of essential requirements.

                                    The Improving America’s Schools Act (IASA) contains
          Plain                     approximately 233,000 words and provides congressional authority for
        Language                    over 36 elementary and secondary education programs. In the current
                                    environment of federal regulation reduction, it is critical that the
                                    reauthorization of this law be clearly written so state educational
                                    agencies (SEAs) and LEAs can implement it without the need for
                                    substantial supplemental guidance. This approach also is supported by
                                    the Presidential Memorandum on Plain Language issued by President
                                    Clinton on June 1, 1998. The memorandum to all Executive Agencies
                                    and Departments begins by stating:

                                              “The Federal Government's writing must be in plain language.
                                              By using plain language, we send a clear message about what
                                              the Government is doing, what it requires, and what services it
                                              offers. Plain language saves the Government and the
                                              private sector time, effort, and money.” (Emphasis added.)
An OIG Perspective on the Reauthorization of the ESEA                                                   Page 3




                                    It is essential that the reauthorized ESEA be guided by common sense
      Essential                     because, at a time of increasing competition for scarce resources, the
    Requirements                    costs to educational agencies in implementing the law must not
                                    outweigh or unnecessarily diminish the benefits of the programs.

                                    There are indications that the current ESEA may not be sufficiently
                                    clear to meet this requirement. In September 1998, our office issued a
                                    memorandum to the Office of Elementary and Secondary Education
                                    that compiled comments from state auditors relating to the
                                    reauthorization of the ESEA. Several state auditors believed that
                                    greater clarity should be provided in the reauthorized ESEA. For
                                    example, additional clarity was recommended for the current
                                    schoolwide provisions, supplement/not supplant requirements, and
                                    certain accounting and auditing provisions.

                                    Additionally, the GAO issued a report in September 1998 entitled,
                                    Elementary and Secondary Education: Flexibility Initiatives Do Not
                                    Address Districts’Key Concerns About Federal Requirements. GAO
                                    found that the flexibility initiatives contained in Title XIV of the IASA
                                    have not been widely used by LEAs. Additionally, the report stated
                                    that the waiver provision in Title XIV has been used by less than three
                                    percent of the school districts nationwide. As indicated by the GAO
                                    findings, SEAs and LEAs appear to continue to rely predominately on
                                    Titles I-XIII of the ESEA to implement applicable federal education
                                    programs. This reliance further demonstrates the need for the
                                    language in all parts of the reauthorized ESEA to be clearly written.

                                    The importance of the need for clarity in the provisions contained in
                                    Titles I-XIII of the ESEA is further supported by the findings
                                    contained in an audit report our office issued in August 1997 entitled,
                                    State and Local Education Agencies Need More Technical Assistance
                                    to Take Full Advantage of the Flexibility Provisions of Title XIV of
                                    the Improving America’s Schools Act. The audit was a “mid-term”
                                    assessment of the major flexibility provisions contained in Title XIV of
                                    the IASA. The report found a general under-utilization of the
                                    flexibility provisions by SEAs and LEAs because officials did not
                                    understand the provisions or how to implement them.

                                    The low number of SEAs and LEAs using the flexibility provisions
                                    contained in the IASA demonstrates that the law is not sufficiently
                                    self-explanatory for them to implement the provisions without
                                    additional guidance from the Department. For example, the
                                    Department published a 16 page Q&A document to respond to
                                    questions concerning Title XIV as well as a 26 page document on the
                                    administration of schoolwide programs.
An OIG Perspective on the Reauthorization of the ESEA                                                 Page 4



                                    Recommendation 1:
                                    Use common sense tests to determine needed requirements.

                                    To ease the burden on SEAs and LEAs, the reauthorized ESEA
                                    should not require substantial clarification, but be written in plain
                                    language that is clear enough to be implemented at the state and local
                                    level without the need for extensive technical assistance. The
                                    following tests are designed to aid the Department and Congress in
                                    helping to determine the appropriate requirements to include in the
                                    reauthorized ESEA.
      An OIG Perspective on the Reauthorization of the ESEA                                   Page 5




                                    Test 1: What Requirements Should Be Included
                                            in the Reauthorized Law?
    Is the requirement
   essential for program                                            Consider striking the
                                                              No
 effectiveness or financial                                            requirement.
         integrity?




            Yes




 Is the requirement based
                                                                    Consider striking the
on research &/or input from                                   No
                                                                       requirement.
   state and local levels?
                                                                             Or


                                                                        Establish support
            Yes                                                     for the requirement and
                                                                        then reapply test.




  Does the requirement
                                                                    Consider striking the
 create an unnecessary                                        Yes
                                                                       requirement.
 administrative burden?




             No




   Will compliance be
                                                                    Consider striking the
  monitored by federal,                                       No
                                                                       requirement.
  state, & local levels?




             Yes




  Will actions be taken
                                                                    Consider striking the
   if grantees do not                                         No
                                                                       requirement.
         comply?


                                                                             Go to
                                         Yes
                                                                            Test 2
     An OIG Perspective on the Reauthorization of the ESEA                                    Page 6




                                Test 2: Is the Law Written in Plain Language?



  Can it be understood
                                                                      Rewrite in plain
  without consulting a                                       No
                                                                        language.
legal or financial expert?




           Yes




   Will the requirement
     need extensive
                                                        Yes       Simplify the requirement.
  guidance or technical
assistance to implement?




            No




    Is there a similar
                                                                  Keep requirement in the
  requirement in other                                       No
                                                                  program specific section.
   sections of ESEA?




           Yes




                                                             No
  Can the requirement
    be included in a                                              Include in cross-cutting
                                                         Yes
     cross-cutting                                                        section.
   section of ESEA?
                                                                            Go to
                                                                           Test 3
An OIG Perspective on the Reauthorization of the ESEA                                                            Page 7




                                    We believe that the uniform application of the above tests by all
                                    Department project teams and congressional staff will produce a
                                    reauthorized ESEA that will be easier for SEAs and LEAs to
                                    understand and to implement. It also should produce an ESEA that
                                    will accomplish the precise goals the Department and Congress want
                                    to achieve through the legislation. To further aid in the development
                                    of the new legislation, we recommend use of the Plain Language
                                    Action Network on the Internet (www.plainlanguage.gov). This
                                    web site is part of the National Partnership for Reinventing
                                    Government and is dedicated to improving communications between
                                    the federal government and the public.

                                    The reauthorization of the ESEA provides a renewed opportunity to
     Data Validity                  incorporate the purposes and goals of the Results Act into the
     and Reliability                legislation. The Department, in its Strategic Plan, 1998-2002,
                                    recognized the need for reliable data with its core strategy of
                                    providing timely and reliable information to program offices to help
                                    them manage their programs through the Education Department’s
                                    Central Automated Processing System (EDCAPS). The reliability of
                                    the EDCAPS information depends upon the reliability of the data
                                    provided by the SEAs, LEAs, and others. The Department recognizes
                                    that program outcomes for education are almost always the joint
                                    results of state, local, institutional, and federal efforts, rather than of
                                    federal programs acting in isolation.

                                    In the OIG report, Moving Towards a Results-Oriented Organization
                                    (September 1998), we emphasized the need for the Department to use
                                    reliable data to determine program performance and costs to operate,
                                    manage and oversee the Department’s programs. The report points
                                    out that education professionals have concerns regarding the quality
                                    of some current data collection efforts.

                                    Recent GAO reports have cited data concerns as well. One example
                                    provided by GAO3 concerned some programs which permitted states
                                    to define the information they collect on program activities and
                                    effectiveness. The report concluded that without requirements for
                                    states to use consistent measures, the Department faces a difficult
                                    challenge in assembling reports necessary to develop a nationwide
                                    picture of program effectiveness.




         3
       The Results Act: Observations on the Department of Education’s Fiscal Year 1999 Annual Performance Plan
(GAO/HEHS-98-172R, June 1998).
An OIG Perspective on the Reauthorization of the ESEA                                                     Page 8



                                    Recommendation 2:
                                    Consider managerial assertions of data validity and reliability.

                                    With the need for all levels to provide valid and reliable data, the
                                    reauthorized ESEA needs to require not only the compilation of data
                                    for use in determining student achievement and program effectiveness,
                                    but also should take into consideration the need to assure the validity
                                    and reliability of data from the state and local levels. To accomplish
                                    this assurance, an assertion could be considered that is similar to the
                                    management assertion required from all Department program
                                    managers under Objective 4.7 of the Department’s Strategic Plan,
                                    which reads:

                                              Objective 4.7: All levels of the agency are fully performance-
                                              driven.

                                              Performance Indicator 30:

                                              By 2000 all ED (Department) program managers will assert
                                              that the data used for their program’s performance
                                              measurement are reliable and valid or will have plans for
                                              improvement.

                                    Recommendation 3:
                                    Use a data validity and reliability test to determine valid and
                                    reliable data requirements.

                                    We developed the following test to help determine whether ESEA
                                    data collections fulfill the need for valid and reliable data as well as the
                                    overall need of fulfilling the Results Act requirements.
An OIG Perspective on the Reauthorization of the ESEA                                                Page 9




                                                    Test 3: Data Validity and Reliability
                         Is the required data
                         appropriate to show                                 Consider striking the
                                                             No
                       program effectiveness &                                  requirement.
                            to fulfill GPRA?
                                                                                      Or



                                                                             Rewrite requirement
                                                                              to fulfill needs and
                                                                               then reapply test.
                                 Yes



                                                                             Consider striking the
                                                                                requirement.
                           Was the required
                            data based on
                                                             No                       Or
                          research, studies,
                         audit results, etc.?

                                                                             Rewrite requirement
                                                                              to fulfill needs and
                                                                               then reapply test.

                                 Yes




                           Does the data
                        requirement duplicate                                Consider striking the
                                                            Yes
                              other data                                      data requirement.
                            requirements?



                                                                             Consider striking the
                                                                                requirement.
                                 No
                                                                                      Or
                                                             No

                                                                             Rewrite requirement
                                                                              to fulfill needs and
                            Does the data                                      then reapply test.
                    reporting requirement include
                       an assertion as to the
                         validity & reliability
                             of the data?
                                                            Yes                    Use it!
An OIG Perspective on the Reauthorization of the ESEA                                                Page 10




                                    The reauthorized ESEA needs to answer the question: “What
        Compliance                  program oversight is needed for an ESEA that focuses on results and
        Monitoring                  administrative flexibility?” (We are using the term “oversight” to refer
                                    to monitoring, technical assistance, grantee reporting requirements,
                                    audits, and evaluations.)

                                    With the increasing emphasis on accountability for results, it is
                                    important to consider the implications of this change on the oversight
                                    of ESEA programs for the Department, SEAs, LEAs, and the schools.
                                    Should the new emphasis affect the extent of the coverage provided
                                    by each of these levels? Should there be more effort devoted to
                                    technical assistance and performance evaluations versus on-site
                                    monitoring?

                                    The following four points reflect the changes occurring in oversight
                                    responsibilities:

                                    (1) With the movement towards administrative flexibility and results-
                                        oriented accountability, there should be a reduction in the number
                                        of compliance requirements for each program area. For the
                                        remaining essential requirements, the performance of compliance
                                        monitoring coupled with appropriate technical assistance and
                                        enforcement measures is critical.

                                    (2) Given the limited resources of state audit agencies and the limited
                                        coverage of single audits (because entities expending less than
                                        $300,000 in federal awards annually are not required to be
                                        audited), audits have a diminished capacity to fulfill the need for
                                        compliance monitoring.

                                    (3) With the information now available from the Single Audit
                                        Clearinghouse, Department program managers should be able to
                                        determine more quickly and accurately the extent and nature of
                                        the audit coverage that is being provided. Thus, they will be able
                                        to develop more effective strategies for understanding compliance
                                        related issues, resolving findings, and monitoring the corrective
                                        actions of SEAs and directly funded local agencies.

                                    (4) The Department will need to train reviewers and modify its
                                        monitoring strategies to meet the information needs of the annual
                                        performance plan it has submitted to Congress under the Results
                                        Act.
An OIG Perspective on the Reauthorization of the ESEA                                                   Page 11



                                    In its report, The Results Act: Observations on the Department of
       The Results Act              Education’s Fiscal Year 1999 Annual Performance Plan (June 8,
           Adds a                   1998), GAO concluded that the Department’s 1999 performance plan
       New Oversight                under the Results Act does not provide sufficient confidence that its
        Responsibility              elementary and secondary education performance information will be
                                    credible. This conclusion paralleled findings from our review of the
                                    status of the Department’s implementation of the Results Act. Our
                                    September 1998 report, Moving Towards a Results-Oriented
                                    Organization, noted that the most common issue raised by
                                    Department officials during the review was the availability of quality
                                    data. We found that data sources had not been found for all 930
                                    performance indicators the Department had identified in its plan and
                                    many baselines had not been established.

                                    Because of the large number of programs authorized under ESEA and
                                    the fact that the sources for much of the required performance
                                    information are at the state level, the need to obtain reliable
                                    performance information adds a significant new element to the
                                    Department’s oversight responsibilities. To ensure the integrity of the
                                    data used for the Department’s performance measurement systems,
                                    the Department or independent state agencies will need to determine
                                    whether internal controls at the state level are sufficient. To efficiently
                                    accomplish this review, the reauthorized ESEA should include the
                                    assertions described in Recommendation 2 (page 8).

                                    To determine if the ESEA Compliance Supplement had achieved its
        OIG Review of               purpose of informing the audit community about the IASA, we
          FY 1996                   analyzed 39 state-level single audit reports, which represented all of
        Single Audits               the 1996 reports that had been received at that time by the
                                    Department. We also analyzed 34 randomly selected LEA single
                                    audits. Our review showed that the most common type of finding
                                    related to weaknesses in the oversight of ESEA programs. Of the
                                    state-level single audits, over half reported that SEA oversight of the
                                    LEAs was unsatisfactory. The specific conditions included:

                                    C SEA program review strategies are inadequate;
                                    C Reviews of LEAs are not documented;
                                    C SEAs are not monitoring subrecipients for compliance with specific
                                      provisions (e.g., the supplement/not supplant rule and
                                      comparability);
                                    C SEAs did not have procedures to ensure that required audits of
                                      subrecipients are performed;
                                    C Findings from audits of subrecipients are not appropriately
                                      resolved; and
An OIG Perspective on the Reauthorization of the ESEA                                                Page 12



                                    C Corrective actions by subrecipients are not monitored by SEAs.
                                      (Some of the ESEA related findings contained in the reports were
                                      recurring from previous years.)

                                    Recommendation 4: Minimum standards.

                                    The Department should establish minimum standards for SEAs in
                                    monitoring the LEA administration of ESEA programs, be it through
                                    ESEA reauthorization (e.g., within Title XIV), other legislation (such
                                    as the General Education Provisions Act), regulations, or
                                    administrative guidance. The standards should require SEAs to:

                                    C Conduct monitoring of LEAs sufficient to ensure compliance with
                                      program requirements;
                                    C Document the purpose, scope, and results of each oversight
                                      activity;
                                    C Ensure that appropriate technical assistance and enforcement
                                      measures are taken when necessary;
                                    C Systematically analyze the results of LEA audits and other
                                      oversight activities to identify trends in findings and develop
                                      monitoring and technical assistance strategies to reduce
                                      occurrences of similar problems; and
                                    C Annually report the results of these analyses to the Department.

                                    The cost for these required activities could be covered by revising the
                                    ESEA to include an allowance for oversight, in addition to current
                                    administrative allowances.

                                    Recommendation 5:
                                    Developing an effective system for monitoring SEAs.

                                    The Department should consider ways it can play a stronger role in
                                    ensuring ESEA program integrity. Its oversight system of the future
                                    should:

                                    C Ensure compliance with the program requirements and the
                                      achievement of program results;
                                    C Integrate on-site program reviews, audits, technical assistance,
                                      reporting, and evaluative studies;
                                    C Emphasize follow-up of corrective actions, including recommended
                                      improvements and enforcement measures when necessary;
                                    C Take into account SEA analyses of LEA single audit findings;
                                    C Satisfy the data reliability requirements of the Results Act and the
                                      Department’s annual performance plans; and
                                    C Hold SEAs accountable for developing and implementing oversight
                                      strategies that meet the five criteria listed above.
An OIG Perspective on the Reauthorization of the ESEA                                             Page 13




                   Compendium of Pertinent OIG Audit Results
                           and Recommendations


Issued Reports:

Safe and Drug-Free Schools: Increasing Accountability and Preserving Flexibility, ACN: 03-
80001. December 21, 1998.

   State and local educational agencies need more guidance or technical assistance to maximize the
   impact of their programs under the Safe and Drug Free Schools and Communities Act
   (SDFSCA). This report summarizes our review at the federal program office, 4 States and 26
   local educational agencies. As a result of this fieldwork, we found that:

         (1) The Federal and States’application review process generally complies with the Act.

               The Department’s SDFS application process improved from the interim program year
               1995/96 to the year under review 1996/97. These improvements resulted in stronger
               management controls during the application review process and additional technical
               assistance to States. As a result, States’applications approved by ED include
               outcome-based performance indicators for the SDFS program.

               Although the States we reviewed have a process for reviewing LEA applications, the
               process needs improvement. States have not assured that LEAs have outcome-based
               performance indicators. In three of the four States reviewed, the performance
               indicators developed by most LEAs were output-based, and did not measure program
               effectiveness.

         (2) Funds are properly distributed to States and LEAs.

               The Federal program office distributed SDFS grants to all four States in accordance
               with the statute. States were also allocating grants to LEAs in compliance with the
               law. Expenditures we reviewed at States and LEAs were supported and consistent
               with the applications and program objectives.

               Although all districts incurred administrative expenses in operating the program, large
               and small districts differed in the amount of administrative burden associated with their
               SDFS program. Requiring districts to submit applications each year added to the
               burden. There is a considerable effort by the LEAs to have comprehensive programs.
               Many are using local funds to supplement their programs.

         (3) Some LEAs do not plan their SDFS activities to address their needs.

               One State visited did not require the LEAs to prepare a comprehensive plan for drug
An OIG Perspective on the Reauthorization of the ESEA                                          Page 14



               and violence prevention, including how SDFS funds would be spent to meet its
               measurable goals and objectives. As a result, LEAs visited that did not have a
               comprehensive plan appeared to be unclear as to the direction of the SDFS program
               and the best use of the funds.

         (4) LEAs should be accountable for greatest needs funding.

               The States we reviewed were properly allocating greatest need funds to LEAs.
               However, the Act does not contain provisions which are specific as to program
               effectiveness and greatest need. The four States reviewed did not provide any
               guidance to the LEAs as to how funds were to be spent. LEAs generally did not
               distinguish their greatest need funds from regular SDFS funds. Greatest need funds
               were used to expand the services that were provided by using the regular SDFS funds.

     To address the conditions we found, the Assistant Secretary of OESE should:

          1. Continue to provide technical assistance/guidance to States and LEAs, building on the
             assistance provided by the Principles of Effectiveness.

          2. Issue guidance to clarify that States can accept multiple-year applications from LEAs.

          3. Consider during deliberations on reauthorization changes to the Act to incorporate
             provisions that will require LEAs to include in their application, a comprehensive plan,
             with a detailed description of SDFS program services and activities. This plan should
             be aligned with the LEAs’measurable goals and objectives and include milestones.

          4. Consider during deliberations on reauthorization changes to the Act to clarify that
             States can award greatest needs funds for the same multi-year period as regular SDFS
             funds.

          5. Consider during deliberations on reauthorization changes to the Act to permit States
             to consider LEAs’planned activities, and the effectiveness of their completed
             activities, as a criterion in awarding greatest needs funding.

          6. Consider during deliberations on reauthorization changes to the Act to permit States
             to consider the performance of LEAs receiving greatest need funds as a criterion for
             continued funding.

Charter School Accountability for Federal Education Requirements, Action Memorandum
No. 98-05. September 1998.

     We generally found that SEA and LEA oversight of charter schools was as rigorous as their
     oversight of other public schools. However, we found that education officials at the state and
     local levels were not administering the Public Charter Schools Program (Title X, Part C,
     ESEA) in accordance with certain federal requirements due to weaknesses in the
     Department’s procedures for providing SEAs and LEAs with guidance and technical
An OIG Perspective on the Reauthorization of the ESEA                                          Page 15



     assistance regarding requirements for program participation.

     Recommendations:

     The Department should complete development of and implement a monitoring strategy that
     will ensure that recipients of program funds comply with federal education requirements.

     Department officials should continue their efforts to develop an operational definition for the
     term “lottery” and disseminate this information to SEAs.

     The Department should monitor the SEAs compliance with the requirements of Section
     10306(2) of the ESEA. The Department should also examine the role for-profit companies
     play in charter schools to ensure that the education of students has top priority.

     The Department should implement procedures to monitor SEAs for compliance with Section
     10302(d) of the ESEA. The Department should respond accordingly to any instances of
     noncompliance.

     The Department should establish and implement a policy on the allowability of charter schools
     using program funds for capital improvements. The Department should implement procedures
     to ensure that grantees and subgrantees are informed about EDGAR requirements.

     Department officials should develop operational definitions for the terms “planning” and
     “implementation” and disseminate this information to SEAs. The Department should require
     SEAs to structure subgrants to schools to identify planning and implementation activities and
     explain how these satisfy the 18-month/2-year provisions.

     The Department should consider recommending an amendment of the program statute to
     require the recipients to ensure that their recruitment, selection, admission, and counseling
     procedures ensure that educational offerings are effectively publicized and made available to
     the entire community.

     ED should review ESEA provisions that have resulted in paperwork burdens and determine if
     any could be revised to make ESEA programs more accessible to small LEAs and schools.

Moving Towards a Results-Oriented Organization, ACN: 17-70007. September 1998.

     The Department has prepared a strategic plan and an annual performance plan for fiscal year
     1999. The Department has distributed those plans and established a reporting system on
     progress with the objectives in the strategic plan. However, during our audit, we identified
     issues similar to those raised by GAO: the need to establish a results-oriented culture; the
     importance of senior leadership involvement; the challenging nature of measuring the federal
     contribution; and the importance of the information being used by the federal agencies and
     Congress in decision-making. To address these issues and effectively implement the Results
     Act, the Department needs to take additional steps. We recommend that the Department
     reassess its reporting systems to the Secretary and Deputy Secretary, increase senior
An OIG Perspective on the Reauthorization of the ESEA                                         Page 16



     leadership visibility, and work with Congress to enact any needed changes to program
     legislation.

     As required by the Results Act, the Department has designed a framework for the verification
     and validation of its performance indicators. The Department now needs to finalize and
     implement a process for assembling the data and analyzing that data, and preparing the
     performance report. To ensure accurate and fair reporting, the Department needs to establish
     controls over the analysis and reporting of performance indicators in this performance report.

     To effectively implement the Results Act, the Department will need valid, reliable, and timely
     data about program performance. However, in some cases, the Department lacks such
     information. Obtaining quality data will warrant consideration by the Department as it
     continues to implement the Results Act.

Comments from State Auditors Relating to Reauthorization of the Elementary and
Secondary Education Act and the Compliance Supplement, Memorandum. September 1998.

     The memorandum reported the results of a May 1998 OIG survey of State auditors. In
     general, the survey asked state auditors for comments and recommendations for the U.S.
     Department of Education and Congress to consider during the upcoming reauthorization of
     the ESEA. It also asked specifically about the provisions in the IASA that were intended to
     provide SEAs and LEAs greater flexibility in administering ESEA programs, e.g. had the
     provisions caused auditors any difficulties, brought to light inconsistencies between these
     provisions and state accounting and reporting requirements, or prompted challenges to audit
     findings. Auditors from 7 of the 24 states that responded to the survey reported that they had
     encountered difficulties.

     We also learned from the survey that, overall, State agencies are not systematically analyzing
     the results of LEA audits to identify trends in findings and to develop monitoring and technical
     assistance strategies to reduce occurrences of similar problems.

Following Title I, Part A and Secondary School Vocational Education Program Dollars to
the Schools in 36 LEAs Visited, ACN: 04-70012. June 1998.

     Our report shows that in school year 1996-1997, an average of 92 percent of Title I, Part A
     and an average of 95 percent of Vocational Education dollars used by the 36 LEAs reached
     the schools. The majority of the Title I, Part A funds were used to support the salaries and
     benefits of personnel directly related with school activities. For the Secondary School
     Vocational Education Program, the majority of the dollars were used to support salaries and
     benefits and to purchase materials and equipment for the schools.

SEAs and LEAs Need More Technical Assistance to Take Full Advantage of the Flexibility
Provisions of Title XIV of the Improving America’s Schools Act, ACN: 04-70001. August
1997.

     SEAs and LEAs need more guidance or technical assistance to take full advantage of the
An OIG Perspective on the Reauthorization of the ESEA                                           Page 17



     flexibility provisions of Title XIV of the Improving America’s Schools Act. LEAs did not
     always know about or have sufficient guidance to implement the Title XIV provisions.

     Recommendations:

     For the Department:

     1. Issue guidance on the consolidation of administrative funds and use of unneeded funds.

     2. Improve technical assistance relationships with each SEA individually.

     3. Evaluate the effectiveness of its actions to increase SEA and LEA awareness and
        understanding of the Title XIV provisions.

     For SEAs:

     1. Work to ensure better distribution of information about the Title XIV provisions to LEAs.

     2. Provide technical assistance to LEAs on use of the Title XIV provisions.

     For LEAs:

     1. Where needed, work to avail themselves of guidance and technical assistance provided on
        Title XIV to obtain a better understanding of the flexibility provisions.

     2. Work to improve communications within LEAs, among LEAs, the SEAs and the U.S.
        Department of Education to better understand the Title XIV flexibility issues.

Review of Monitoring Controls Used to Ensure Fulfillment of Title VII Bilingual Education
Grant Program Objectives, ACN: 04-60152. June 30, 1997.

     Our audit identified a need for improving the grant control environment to include additional
     monitoring by OBEMLA and the SEAs. Without monitoring, officials cannot ensure that:

         (1) bilingual program objectives are being met;
         (2) Title VII grant dollars are being used appropriately by grant officials and project
             directors; and
         (3) grants are fulfilling the Department’s capacity-building policy to assure that the
             schools can continue to offer bilingual education after federal assistance is reduced or
             eliminated.

     Recommendations:

     The Director of OBEMLA should work with appropriate officials to:

     1. Develop revisions to Title VII of the IASA during the 1999 Reauthorization to clarify the
An OIG Perspective on the Reauthorization of the ESEA                                        Page 18



          need and requirement for federal level monitoring reviews of grants, including
          appropriations as needed.

     2. Prior to the 1999 Reauthorization, develop and implement a monitoring program to
        provide for thorough on-site reviews of Title VII grants and thorough documentation of
        monitoring results.

          The monitoring program should include:

          (1) Documentation of telephone calls and decisions made based on the calls and inclusion
              of results in the working and official grant files.
          (2) Development of a central mechanism to provide results from monitoring reviews and
              decisions made from telephone calls.

     3. Collaborate with Title VII State Grant Program grant recipients to increase consultation
        with LEAs to enhance the effectiveness of Title VII grant awards and provide an
        additional source of compliance oversight.

     4. Conduct a thorough monitoring review of the Grant TX(1) (Houston Independent School
        District-Mark Twain Elementary School). Document review results to support either
        terminating or continuing the grant.

Letter to Representative William H. Zeliff, Jr. Concerning Drug-Free Schools and
Communities Act (DFSCA). February 1996.

     Using a sample of nine LEAs in eight states nationwide, we visited with each DFSCA program
     coordinator. Our review included the following results:

     C All nine LEAs had program elements that clearly discouraged drug use. All nine LEAs
       had programs that included aspects other than drug avoidance, such as improving self-
       esteem, conflict resolution, and improving social behavior.

     C Eight of nine LEAs solicited suggestions from the community in developing their DFSCA
       Program.

     C Five of the nine LEAs received significant amounts of state and local funding for drug-free
       activities. The amounts ranged from $850,000 to $2.4 million.

     C Five of the eight states allocated DFSCA funds among their LEAs in such a manner that
       some districts received less than $150. Four of the eight states allocated less than $50 of
       DFSCA funds to some LEAs.
An OIG Perspective on the Reauthorization of the ESEA                                          Page 19




                                                    Glossary

 1. CAROI - Cooperative Audit Resolution and Oversight Initiative.

     CAROI serves as a collaborative method to provide alternative and creative approaches to
     resolve audit findings as well as their underlying causes. The states and the Department work
     together to help solve recurring problems identified in single audits as well as audits from the
     OIG. The goal of CAROI is to improve education programs and student performance at state
     and local levels through better use of audits, monitoring, and technical assistance. The
     Department has entered into cooperative agreements to resolve outstanding single audit
     findings with Florida, Mississippi, Pennsylvania and Washington. In early 1999, the
     Department plans to publish a CAROI handbook entitled, Discovering New Solutions
     Through Cooperative Audit Resolution: A Guide.

     For further information on the Department’s CAROI activities, please refer to the CAROI
     Home Page at www.ed.gov/inits/CAROI.

2.   Single Audit - The Single Audit Act of 1984, P.L. 98-502, and the Single Audit Act
     Amendments of 1996, P.L. 104-156 were enacted:

     (1) to improve the financial management of state and local governments with respect to
         federal financial assistance programs;

     (2) to establish uniform requirements for audits of federal financial assistance provided to
         state and local governments;

     (3) to promote the efficient and effective use of audit resources; and

     (4) to ensure that federal departments and agencies, to the maximum extent practicable, rely
         upon and use audit work done pursuant to the Single Audit Act.

     Non-federal entities that expend $300,000 or more in federal awards in a year shall have a
     single audit conducted in accordance with OMB Circular A-133 except when they elect to
     have a program-specific audit conducted.

     ESEA Compliance Supplement - The ESEA Compliance Supplement is the audit guide for
     single audits of ESEA programs at the state and local levels. The ESEA Compliance
     Supplement is part of a much larger Compliance Supplement issued by OMB which covers
     single audits of all federal programs.

     For information on current single audit reports, please refer to the Federal Audit
     Clearinghouse web site at harvester.census.gov/sac.
An OIG Perspective on the Reauthorization of the ESEA                                         Page 20



3.   Program Coordination Reviews (PCRs) - PCRs are designed to examine the implementation
     of federal education programs as a coherent set of funding efforts that link with each other and
     support state and local reform efforts to improve the performance of all students. PCR teams
     are made up of representatives of the Department’s various program and staff offices. The
     Department continues to evaluate its approach of conducting reviews to ensure that the
     Department serves the needs of the state and local levels.
